<html>
<title> - PIPELINES OVER PEOPLE: HOW FERC TRAMPLES LANDOWNER RIGHTS IN NATURAL GAS PROJECTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    PIPELINES OVER PEOPLE: HOW FERC
                      TRAMPLES LANDOWNER RIGHTS IN
                          NATURAL GAS PROJECTS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2020

                               __________

                           Serial No. 116-128

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-595 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                            
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                               
                               ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Jody B. Hice, Georgia
Alexandria Ocasio-Cortez, New York   Michael Cloud, Texas
Ayanna Pressley, Massachusetts       Carol D. Miller, West Virginia
Eleanor Holmes Norton, District of 
    Columbia
Rashida Tlaib, Michigan
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 9, 2020.................................     1

                               Witnesses

David L. Morenoff, Acting General Counsel, Federal Energy 
  Regulatory Commission
Oral Statement...................................................     7
Terry Turpin, Director, Office of Energy Projects, Federal Energy 
  Regulatory Commission
Oral Statement...................................................     9

Written opening statements and statements for the witnesses are 
  available in the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * The Niskanen Center's statement for the record.

  * Comments from William F. Limpert; submitted by Rep. Raskin.

The documents entered into the record during this hearing, and 
  Questions for the Record (QFR's) submitted after the hearing, 
  are available at: docs.house.gov.

 
                PIPELINES OVER PEOPLE: HOW FERC TRAMPLES
                LANDOWNER RIGHTS IN NATURAL GAS PROJECTS

                              ----------                              


                      Wednesday, December 9, 2020

                   House of Representatives
   Subcommittee on Civil Rights and Civil Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:06 a.m., 
via Webex, Hon. Jamie Raskin (chairman of the subcommittee) 
presiding.
    Present: Representatives Raskin, Wasserman Schultz, Kelly, 
Gomez, Norton, Tlaib, Maloney (ex officio), Roy, Massie, Cloud, 
Miller, and Comer (ex officio).
    Also present: Representatives Lynch, and Armstrong.
    Mr. Raskin. Good morning. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
at any time. Without objection, Mr. Lynch, the gentleman from 
Massachusetts, and Ms. Porter, the gentlelady from California, 
and Mr. Armstrong, the gentleman from North Dakota, shall be 
permitted to join our subcommittee and to be recognized for the 
purpose of questioning witnesses. I now recognize myself for an 
opening statement.
    Good morning, and thank you to all of our witnesses for 
being here with us virtually today, and thanks to everyone else 
who is tuning in to this very important hearing. The New Deal 
Congress passed the Natural Gas Act in 1938 to break up energy 
monopolies and to ensure the Federal Government put the public 
interest front and center in energy construction projects. As 
the Supreme Court put it, the Natural Gas Act was quote 
``Plainly designed to protect the consumer interest against 
exploitation at the hands of private natural gas companies.''
    In 1977, Congress created the Federal Energy Regulatory 
Commission, FERC, to ensure robust and independent 
implementation of the Natural Gas Act's regulation of energy 
markets. Just a year later, Congress went a step further in 
order to establish an office of public participation to give 
the people a direct voice in the workings of FERC. FERC is 
there to protect the people of the United States. It is there 
to protect us, the people of the country.
    But our subcommittee's investigation has determined that 
rather than acting as a champion of the public interest, and as 
a check on the limitless, or seemingly limitless wealth and 
power and ambitions of energy companies, FERC has become a 
rubber stamp for the energy companies that want to build 
pipelines on other people's land. In every way that we have 
examined so far, FERC turns out to be biased, severely, against 
individual property owners, against the citizens of the 
country. Here is an example:
    In the last 20 years, FERC has received 1,021 applications 
to build natural gas projects by energy companies. It has only 
denied six of more than 1,000. That is higher than a 99.9 
percent approval rate for the energy companies. Now, think 
about this for a second. If you flip a coin, your chances of 
winning are 50/50. If you do rock, paper, scissors, your 
chances of winning are 50/50. In a casino where we know the 
odds favor the house, in Blackjack, it's something like 51 to 
49, for the house. In craps, which I think is your most 
unfavorable bet, it's something like 60/40 for the house.
    But if you are a citizen landowner going before FERC, your 
chances are 1 in 1,000. If you are an energy company, you've 
got more than 99 percent chance of winning. FERC has a 
similarly lopsided approval rate when it comes to certificate 
extensions, which pipeline companies request when their 
projects go beyond the agreed upon schedule.
    Over the last dozen years, FERC received 92 extension 
requests, and it won 89 of 92. That's a 96.7 percent win rate 
for the energy companies. On average, pipeline companies asked 
for a 21-month extension on average, they got 20 months. In 
other words, when pipeline companies ask FERC for something, 
they get it. You can bet your bottom dollar the company almost 
never loses when the house is FERC.
    In contrast, over the same period, FERC did not approve a 
single landowner appeal. A system where corporations win nearly 
100 percent of the time, and people win nearly zero percent of 
the time is not a fair, unbiased, and balanced system. It is 
rigged. That is not a system of justice or administrative 
process that anyone can recognize for a democratic society.
    But there's more evidence of FERC's bias against 
landowners. FERC never actually created the Office of Public 
Participation that Congress established in 1978. That's a 40-
year record of doing the wrong thing. That same year, Congress 
also ordered FERC to establish a landowner compensation program 
to help people afford to defend their rights against the 
pipeline companies. But FERC never set up the program. It never 
gets around to helping the citizen landowners of the United 
States.
    The Yeoman farmers that Thomas Jefferson thought would be 
the backbone of America--well, the results of this loaded deck 
are obvious. Landowners suffer at the hands of the big pipeline 
companies, even amazingly, when the pipeline projects never 
even get built.
    This year, two projects, the Constitution Pipeline, and the 
Atlantic Coast Pipeline, were simply canceled. Both companies 
had already secured easements to take up other people's land 
through eminent domain. They tore up other people's land. They 
destroyed their businesses. But the projects themselves were 
canceled. And even though the projects were canceled, there is 
no process in place to ensure that the damage to the property 
is rectified and repaired by the companies, and that the people 
actually get the use of their land back.
    Now, tell me what has that got to do with the private 
property rights that I thought were sacrosanct under our 
Constitution? What does that have to do with due process? What 
does it even have to do with the free market? It's just a 
giveaway of unlimited rights to big corporations against the 
people of the country.
    FERC claims it has no authority in these matters leaving it 
solely to landowners to try to negotiate themselves with the 
pipeline companies. What a fraud that is. Pipeline companies 
get FERC certificates of convenience to exercise eminent domain 
power over other people's land. They need FERC's authority and 
approval to cut down their trees and, to trample their property 
rights. So, FERC is the necessary precondition for all of this 
to take place.
    Consider the Hollerans, who run a family maple syrup 
business in Susquehanna County, Pennsylvania, not far from 
where I live in Maryland. The Constitution Pipeline company got 
an easement over the Hollerans' property through the awesome 
power of eminent domain. They tore down 90 percent of the maple 
syrup producing trees on the Hollerans' property, and then, 
they completely abandoned the project. They deserted it. It's 
over.
    And to add insult to injury, the company that trampled 
their property calls itself the Constitution Pipeline Company. 
But to FERC, the destruction of the Hollerans' maple business 
is just collateral damage. They're just roadkill for their real 
job, which is facilitating whatever the pipeline companies want 
to do.
    FERC is an accomplice to the destruction of the Hollerans' 
family maple syrup business. None of what happened to them 
would have been possible without FERC and their various 
regulatory fixes and approvals. Don't point the finger at state 
court judges who follow in the wake of the certificates of 
easement adopted by FERC.
    The Hollerans are not unique. You can find stories of 
family businesses being ravaged like this all over the United 
States of America--from farmers in Oklahoma whose land has been 
destroyed, to a 73-year-old retiree in Virginia, unable to 
build a home on land his family has owned for five generations 
where he was going to retire. These are Republicans, these are 
Democrats, these are American citizens whose rights are being 
trampled by a combination of big business and a compliant big 
government working for big business. These are Americans who 
have a right to their property and their rights are being 
demolished. FERC just clears the way for pipeline companies to 
trample the property rights of the people.
    Now, make no mistake, I believe and the law envisions that 
pipeline companies should sometimes win, and can provide a 
public good, but there must be a real process that considers 
the merits on all sides. There must be a real legal process 
that takes place, not a stacked deck. The process of regulating 
the construction of gas pipelines needs to be balanced and fair 
for everyone. This is the way that Congress tried to design it. 
It's time that FERC restores fairness and transparency and 
balance to the process.
    Thank you, and now I recognize my distinguished colleague, 
Mr. Roy, for his opening statement.
    Mr. Roy. Do you guys hear me?
    Mr. Raskin. Yes, we got you, Mr. Roy.
    Mr. Roy. Thanks, Chairman Raskin. Thanks for holding this 
hearing. I also want to appreciate all the witnesses, the 
witnesses from FERC, and for their willingness to appear before 
the subcommittee to talk about FERC's role here and make sure 
we're balancing our energy needs in this country and property 
rights, as we all want to do. Obviously, as we know, under the 
leadership of this administration, my former boss, full 
disclosure, Rick Perry, for whom I worked in Texas, as the 
Secretary of Energy, the United States achieved unprecedented 
energy independence.
    In the past 15 years alone, we've seen a transformation 
across our national energy portfolio, driven heavily by 
abundant natural gas.
    In 2017, we became an exporter of natural gas for the first 
time in 60 years. Private sector innovation led to a 
combination of fracking and horizontal drilling, allowing us to 
tap large lines of gas previously uneconomical to produce. In 
North America, there's an estimated 4.2 quadrillion cubic feet 
of recoverable natural gas reserves, enough gas to power the 
United States for 175 years at current rates of consumption. 
Between 2008 and 2018, fracked natural gas added 17 times more 
energy to the United States than all solar panels and wind 
turbines combined.
    And were the example this hearing room--or the hearing room 
that we would be operating in were we not doing this 
virtually--is kept warm in the middle of December by the 
natural gas powered Capitol Power Plant down the street. 
Unfortunately, that's not the case across America. According to 
the EIA, 25 million United States households say they have gone 
without food or medicine to pay for energy bills; 12 million 
say they have kept their home at unsafe temperatures.
    Abundant, affordable, natural gas is key to driving down 
those energy poverty statistics. The United States cannot only 
benefit from this resource domestically, but we can export fuel 
across the world to developed nations--developing nations and 
allies who do not want to depend on Russia, China, or Iran for 
their energy needs.
    The strategic development of energy resources require 
infrastructure for public use. And that brings us to our 
subject earlier today--our subject matter today. I would note 
that when we're talking about the availability of natural gas, 
what that has meant, we're driving down CO2 levels around the 
world and in the United States. If we continue to export clean-
burning natural gas, we drive down CO2 levels.
    That's just a matter of fact. And we don't want to turn 
this over to China. We don't want to let India and other 
countries continue to be putting massive amounts of CO2 in the 
air, when we can export clean burning natural gas to drive 
those numbers down. We return our levels of CO2 down to 1990 
levels. So, we got to understand what we're talking about here.
    Look, the United States cannot only benefit from this 
resource domestically, as I said, we can export it. The 
strategic development of energy resources requires 
infrastructure. Pipelines are critical to ensure that everyone 
has access to natural gas in a safe and efficient manner.
    I have experience dealing with eminent domain concerns in 
my district in the Texas hill country. The 430-mile Permian 
Highway Pipeline was approved before my first term in Congress. 
This was an intrastate pipeline, so it did not involve the FERC 
certification process. But I understand some of the very real 
concerns landowners have when approached with this situation. I 
have had numerous meetings with homeowners, landowners, who are 
very concerned about pipelines going in their backyard, how the 
process unfolded.
    I made sure that the Texas legislature and statewide 
elected officials that deal with these issues, the Railroad 
Commission in Texas, are aware of my concerns about ensuring 
that property owners have due process and have the ability to 
have a say before pipelines are put on their property, or put 
near their homes.
    We need to improve that process at the state level and 
surely look at it and review it at the Federal level as well. 
I've asked state legislators to review the processes in place 
within the state to protect private property rights.
    It's important to note that FERC is an independent 
regulatory agency. And, you know, FERC has continued to improve 
its processes and procedures to ensure the landowners' rights 
are protected, while simultaneously approving central pipeline 
projects that will help Americans access affordable natural 
gas. The Natural Gas Act was amended in `47 to provide eminent 
domain authority to interstate natural gas pipelines with FERC-
approved certificates of public convenience and necessity. The 
authority to use Federal eminent domain for pipeline projects 
is one that is only used by pipeline companies as a last 
resort, typically.
    A survey by the Interstate Natural Gas Association of 
America concluded that from 2008 to 2018, only 1.67 percent of 
individual tracts needed to construct the survey projects were 
acquired after a judicial determination of just compensation 
and an eminent domain proceeding.
    On June 9, FERC issued Order No. 871, which revises 
regulations to provide that it will not issue notices to 
proceed with construction of facilities authorized under the 
NGA until the Commission acts on any rehearing requests related 
to FERC's authorization of the facility. This ensures that a 
pipeline will not begin construction, and a landowner's 
property will not be disturbed unless and until FERC has 
addressed the rehearing request.
    This action highlights that FERC is striving to protect 
landowners' rights, and I am confident we will learn more about 
additional measures today.
    But I do suspect that there's a little bit of ulterior 
motives surrounding natural gas pipelines, and what I am 
talking about in this committee, motivated not necessarily just 
by private property rights, and I believe the Chairman and I 
share a very strong agreement in protecting property rights 
throughout this process, and wanting to make sure that 
individual landowner property rights are respected and improve 
this process. One-hundred percent want to figure that out.
    But I also know that there's a lot of energy on--for my 
colleagues on the left to try to kill pipelines. That's just 
the truth. We know that. We see it. We see it politically. We 
see it all the time. There's a specific desire to do that. 
Democrats are not shy in their support of carbon taxes, 
fracking bans, leftist schemes, like the Green New Deal that 
would destroy millions of jobs, and force Americans into energy 
poverty.
    My colleagues in this committee have repeatedly attacked 
efforts to build robust and competitive energy infrastructure. 
This April, with all due respect, Chairman Raskin and 29 
Democrats led a letter to FERC calling for a moratorium on the 
approval and construction of new natural gas pipeline projects, 
and liquefied natural gas export facilities.
    My colleagues, I think, we need to work together to make 
sure that we're ensuring to protect private property rights, 
but in no way should we be standing in front of the ability for 
the United States to be a leader in producing natural gas 
domestically, and to be able to export liquefied natural gas 
around the world, driving down CO2, increasing our energy 
independence, and making us a stronger and better country.
    So, with that, I'll turn that back over to the Chairman.
    Mr. Raskin. Mr. Roy, thank you very much.
    I now recognize the Chairwoman of the full committee, Mrs. 
Maloney, for her opening statement.
    Mrs. Maloney. Thank you so much, Chairman Raskin. Good 
morning. First, I would like to thank the Chairman for 
convening this hearing, and I'd like to thank all of the 
panelists that are here. And I commend the Chairman for all his 
work his subcommittee has done on this important issue, on this 
hearing, ``Pipelines over People: How FERC Tramples Landowner 
Rights in Natural Gas Projects.''
    There is a growing consensus among landowner advocates and 
communities, courts, and even some FERC commissioners, that 
FERC's process is not fair. In 2017, the Center for Public 
Integrity and State Impact Pennsylvania undertook a 
comprehensive investigation into FERC. The investigation 
involved more than 100 interviews and reviews of FERC records 
for almost 500 pipelines. They found that, quote, ``At every 
turn, the agency's process favors pipeline companies,'' end 
quote. The subcommittee's investigation supports this finding.
    As Chairman Raskin mentioned, the investigation revealed 
that FERC has a near-100 percent approval rate for pipelines. 
At the same time, however, FERC denied every single landowner 
appeal over the last 12 years.
    The FERC process could also be quite confusing for 
landowners, even governments, who have never dealt with this 
kind of matter before. FERC Commissioner Richard Glick has 
called on the Commission to quote, ``Redouble its efforts to 
accommodate landowners as they try to navigate the sometimes 
Byzantine set of rules and regulations that can make up a FERC 
proceeding,'' end quote.
    This issue presents an excellent opportunity for 
bipartisanship. Bill Gow, a landowner in Douglas County, 
Oregon, in the pathway of the Jordan Cove Project, describing 
his opposition to the big pipeline companies and the FERC 
process said, and I quote, ``I have been a Republican for 45 
years. I'm as conservative as they come. The Republican Party 
was built on private property rights. This is one of our core 
issues,'' end quote.
    He called on the Republicans to stand up for the little 
guy, for the folks in rural and urban counties who may not have 
the resources to fight big pipelines.
    Well we are answering that call today. And I hope my 
colleagues on both sides of the aisle will join Chairman Raskin 
in his fight to restore balance and fairness to the FERC 
pipeline process. I understand the Chairman is working on 
legislation to restore that balance. I offer my assistance and 
endorsement for these efforts. I find it particularly appalling 
that they are able to take a person's property from them, while 
there is an appeal pending.
    Even before the appeal is even heard and a decision made, 
they are taking people's property. This is unfair and unjust. I 
am so proud of the Chairman for working on a solution should 
FERC not, through their own administrative process, make it 
fair, that by legislation, we make it fair to the American 
people.
    I yield back, and I thank the Chairman for his dedication 
and hard work on this subject. Thank you.
    Mr. Raskin. Chairwoman Maloney, thank you for your very 
eloquent and thoughtful remarks, and counter-posing corporate 
power against the individual rights of the people. And when 
we've got to choose, are we going to stand up for the rights of 
the people or for the power of big corporations?
    I am now happy to recognize the ranking member of the full 
committee, Mr. Comer--oh, wait, forgive me. Ah, Mr. Comer is 
not coming. OK.
    In that event, I would like to introduce our witnesses 
today. We are very grateful to them for coming and for sharing 
their expertise. Our first witness today is David L. Morenoff, 
who is the acting general counsel of FERC, the Federal Energy 
Regulatory Commission. Then we will hear from Terry Turpin, who 
is the director of the Office of Energy Projects at FERC. The 
witnesses will be unmuted so we can swear them in.
    Gentleman, please raise your hands, your right hands, if 
you would.
    OK. Do you swear or affirm that the testimony you are about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Thank you. Let the record show that both witnesses answered 
in the affirmative. Without objection, your written statements 
have been made part of the record.
    Mr. Raskin. With that, Mr. Morenoff, you are now recognized 
for five minutes for your testimony.

STATEMENT OF DAVID L. MORENOFF, ACTING GENERAL COUNSEL, FEDERAL 
                  ENERGY REGULATORY COMMISSION

    Mr. Morenoff. Chairman Raskin, Ranking Member Roy, and 
members of the subcommittee, my name is David Morenoff. I am 
the Acting General Counsel of the Federal Energy Regulatory 
Commission. I joined the Commission's staff in 2006, and I am 
honored to have served in senior roles in the Office of the 
General Counsel since 2010.
    I appreciate the opportunity to appear before you today. 
The views I express are my own and are not necessarily those of 
the Commission or any individual commissioner.
    The Commission takes seriously the responsibility assigned 
to it by Congress under the Natural Gas Act for determining 
whether a proposed natural gas pipeline or storage facility is 
in the public interest.
    Fulfilling those responsibilities, the Commission accounts 
for and balances many factors, including the potential impact 
of that infrastructure on landowners. The Commission also has 
taken recent steps to ensure that affected landowners who wish 
to do so may seek relief in court in a timely manner.
    Under the Natural Gas Act a prospective developer of 
natural gas infrastructure must obtain a certificate of public 
convenience and necessity from the Commission. The Commission's 
regulations provide for public notice and the opportunity to 
intervene in certificate proceedings, for commenting on or 
protesting an application, and for participation in the 
environmental review process.
    In considering a certificate application, the Commission 
bases its decisions on an extensive written record that 
reflects information from the prospective developer, other 
parties to the proceeding, commenters, and an environmental 
analysis prepared by the Commission staff pursuant to the 
National Environmental Policy Act.
    When the Commission grants a certificate of public 
convenience and necessity, the Natural Gas Act allows the 
certificate holder to initiate eminent domain proceedings. 
Thus, the Natural Gas Act assigns eminent domain authority 
solely to certificate holders. It confers no such authority 
upon the Commission, nor does the Commission have a role in the 
acquisition of property rights through private contracts 
resulting from easement negotiations between a prospective 
developer and a landowner.
    Any legal disputes involving the timing and nature of those 
property rights, as well as compensation that the landowner may 
receive, must be resolved by an appropriate Federal or state 
court. Parties to a Commission proceeding have the right to 
seek rehearing of a Commission order, and they must do so 
before appealing to an appropriate Federal court.
    The Natural Gas Act provides that if the Commission does 
not act on a rehearing request within 30 days, then the request 
may be deemed denied. Prior to the summer and consistent with 
longstanding court precedent, the Commission routinely acted on 
rehearing requests initially by issuing what was known as a 
tolling order. Tolling orders granted rehearing for the limited 
purpose of providing more time for the Commission to consider 
the merits of the hearing requests. This summer, however, the 
U.S. Court of Appeals for the D.C. Circuit held that tolling 
orders do not permit rehearing requests from being deemed 
denied after 30 days. The next day, the Commission began 
implementing changes to its rehearing practices. Most 
importantly, the Commission no longer issues tolling orders. 
Instead, where the Commission is not acting on the merits of a 
rehearing request by the 30-day deadline, the Commission 
generally now issues a notice acknowledging that because the 
30-day deadline has passed, the hearing may be deemed denied. 
Therefore, a party may proceed to seek judicial review of the 
underlying Commission order.
    The Commission also has made other changes over the past 
year to expedite consideration of landowners' hearing requests. 
For example, in February of this year, Chairman Chatterjee 
announced the creation of a new rehearings section within the 
Office of the General Counsel, as well as a group within that 
section focused on landowners' hearing requests to help ensure 
that rehearing requests are considered as quickly as possible.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering any questions that you may 
have.
    Mr. Raskin. Mr. Morenoff, thank you very much for your 
testimony.
    Mr. Turpin, you are now recognized for your five minutes.

STATEMENT OF TERRY TURPIN, DIRECTOR, OFFICE OF ENERGY PROJECTS, 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Turpin. Thank you, Chairman Raskin, Ranking Member Roy, 
and members of the subcommittee. My name is Terry Turpin, and I 
am Director of the Office of Energy Projects at the Commission. 
I am an engineer by training and came to work at the Commission 
in 1998. Over the last two decades, I have worked as staff 
preparing technical analyses to advise the Commission and to 
implementing compliance programs during construction of 
approved projects. During the last five years, I have served as 
first deputy director, and then director of the Office of 
Energy Projects.
    I appreciate the opportunity to appear before you today. 
The views that I express are my own and are not necessarily 
those of the Commission or of any individual commissioner.
    As my colleague David mentioned, the Commission's 
consideration of a certificate application includes the 
environmental analyses prepared by the Office of Energy 
Projects. This is done to meet the National Environmental 
Policy Act. Just as in determining whether a proposal is in the 
public interest, the Commission takes seriously its 
responsibilities for environmental impacts, including the 
potential impact of that infrastructure on landowners.
    The environmental review is carried out through a process 
that encourages collaboration, and provides input from 
agencies, landowners, and other interested stakeholders. There 
are several distinct phases in the Commission's process.
    First, before a project sponsor has filed an application 
with the Commission, the Commission's staff will begin to 
engage with stakeholders affected by the projects, including 
landowners, with the goal of identifying issues that the 
project developer should consider addressing in the design of 
this intended project. The intent of this pre-filing period is 
to identify and enable resolution of as many issues as possible 
while the project is still in a conception stage, rather than 
waiting until after an application to do so. Through this 
process, project developers generally make many route 
adjustments in response to concerns raised by landowners, 
government officials, or other stakeholders.
    Once a project developer has filed an application, 
Commission staff prepares an environmental review document, 
often issued for public comment, analyzing impacts of the 
developer's proposal, and identifying potential mitigation that 
can further be used to reduce impacts.
    If a project is found to be in the public interest and 
approved by the Commission, this potential mitigation is 
included in the Commission's order as conditions that must be 
met by the project. Staff of the Office of Energy Projects 
works to ensure compliance with these conditions throughout 
both construction and restoration efforts.
    Throughout project construction, FERC staff monitor the 
developer's progress and compliance through review of 
construction status reports and through infield inspections. 
For large, complex projects, staff uses compliance monitors 
stationed throughout the project construction areas to conduct 
daily fuel inspections, issue noncompliance notices, and direct 
corrective actions that the developer must take.
    At any time throughout the construction and restoration 
process, landowners can notify the Commission if they believe 
their property was not properly restored, by contacting the 
Commission's landowner helpline, or by making a filing in the 
relevant Commission docket.
    Staff from either of the Office of Energy Projects or the 
Commission's Dispute Resolution Service, will then followup 
with the landowner. If there are additional restoration 
activities the landowner believes are needed, staff will 
contact the landowner and the pipeline developer for 
information necessary to assess the issue. Staff or compliance 
monitors also perform inspection of the landowner's property 
where restoration concerns have been raised. Based on this 
information, staff determines if any further remediation by the 
project developer is required and directs the company to 
undertake it.
    While staff oversight is most intense during construction, 
it continues after the project goes into service, for as long 
as it takes for the developer to complete restoration. 
Restoration is considered successful if the right-of-way 
surface condition is similar to adjacent, undisturbed lands, if 
construction debris has been removed, if revegetation is 
successful, and if proper drainage has been restored.
    Thank you, again, for the opportunity to appear before you 
today. I would be happy to answer any questions that you may 
have.
    Mr. Raskin. Mr. Turpin, thank you very much for appearing 
today. I will now recognize myself for five minutes for my own 
questioning.
    I want to start with you, Mr. Morenoff, I assume you're not 
bragging about the new policy on tolling orders adopted by 
FERC, because that was done, prompted by the D.C. Circuit 
Court's ruling which cited the work of our subcommittee 
investigating FERC. I just wanted to make sure that that was 
not something you were really--should at least try to take full 
credit for, for FERC.
    Mr. Morenoff. Mr. Chairman, thank you. I agree that the 
D.C. Circuit issued its decision, and I think that FERC 
appropriately responded immediately to implement that decision.
    Mr. Raskin. Well, would you agree with my assessment that 
the odds are overwhelmingly on the side of the energy companies 
at every step in the process?
    Mr. Morenoff. Chairman Raskin, I think that that is an 
overstatement of the situation. I think that the Commission 
takes very seriously all of the comments from every party that 
is placed into the written record, and I am proud of the 
Commission's work in that respect.
    Mr. Raskin. Well, Mr. Turpin, let me ask you, would you 
rather be a pipeline company coming before FERC, or a landowner 
who is trying to stop a pipeline from being built on his land?
    Mr. Turpin. I think both parties have equal opportunity to 
address the Commission and raise their issues. So, I would be 
either.
    Mr. Raskin. Why do the pipeline companies win more than 99 
percent of the time?
    Mr. Turpin. The process that the Commission uses to review 
the projects generally results that only viable projects reach 
up to the--their changed throughout the process. So that more 
or less, only viable projects really ever get to consideration 
by the Commission.
    Mr. Raskin. OK. The Atlantic Coast Pipeline, or ACP, had a 
planned route that would have stretched across Virginia, West 
Virginia, and North Carolina. And Donovan McLaurin, is 73 years 
old, he owns a plot of land in North Carolina, where he was 
planning to retire and build a small house. It's been in his 
family for five generations. It was right in the path of where 
the ACP wanted to build its pipeline. The company tried to 
convince him to sell his easement, but he said no. He said, 
``This is America. I don't want to sell.''
    Well, ACP took him to court and he--and the company got the 
easement from some conservative judges. You know, President 
Trump, of course, calls himself the king of eminent domain. So, 
we're seeing this massive abuse of eminent domain power across 
the country. But they took his property. So, he was supposed to 
get paid for the forcible taking, but he never got paid. They 
never gave any money.
    This year, the project taking his property was canceled 
after ACP failed to do whatever it needed to do under state 
law. That cancellation has left a huge mess behind for Mr. 
McLaurin and lots of other people in the same situation. ACP 
got easements from 2,000 property owners, including 80 people 
who have lost their property rights through eminent domain 
actions based on the FERC certificate.
    Now, Mr. Morenoff--in other words, ACP has--unless ACP 
agrees to forfeit its easement, it continues to own access to 
those 2,000 parcels of land in perpetuity. Isn't that correct? 
Am I understanding that right?
    Mr. Morenoff. Mr. Chairman, my understanding is that the 
property rights would be determined by the terms, either of the 
eminent domain proceeding in the court or by the individual 
contract negotiated on a private basis. So, the terms may 
differ depending on its terms.
    Mr. Raskin. OK. And there's nothing that FERC does that 
conditions the receipt of an easement on the return of the 
property in the event that the project never goes forward, is 
there? Is there anything that you do to make sure property 
owners get their property back if their property is taken but 
the project doesn't go forward?
    Mr. Morenoff. Mr. Chairman, traditionally, the Commission 
has viewed eminent domain and those private negotiations to be 
properly addressed, either in court or in those negotiations.
    Mr. Raskin. But you wash your hands of that. FERC basically 
washes its hand of that process. They say, well, that's at that 
point between the property owner and the company. Would you 
agree that an easement by--a pipeline easement generally 
reduces the value of somebody's property and makes it much 
harder to sell? Would you agree to that? Like take Mr. Roy's 
constituents in Texas, if they didn't want to sell but their 
land is taken by eminent domain, would you agree that it's much 
harder for them to sell their property to someone else?
    Mr. Morenoff. Mr. Chairman, that may be the case. I think 
it is built into the statute that that process is part of this 
consideration.
    Mr. Raskin. In fact, Mr. McLaurin had already agreed to 
sell part of his homestead to other buyers, and then the sales 
went south at the point at which the eminent domain power was 
exercised by the company. A U.S. district court was absolutely 
incredulous at what ACP had done. He said, and I'll quote just 
part of it here, ``Here they are aggressively taking the bit in 
their teeth and running through several states, grabbing up 
land, and throwing money. And on a Sunday afternoon they 
decide, well, maybe we don't need all this anymore. Let's just 
fold up our tent.''
    Meantime, FERC has said that it, quote, ``has no authority 
or involvement with respect to ensuring that landowners can end 
these easements on their land for pipelines that will never be 
built.'' So, there's a perpetual indefinite easement taken on 
their land for projects that will not be built.
    Now, it seems to me there are things that FERC could do if 
it were concerned with actually treating landowners fairly in 
this process. And we understand that the pipeline companies are 
going to win 99 percent of the time. But couldn't you impose a 
prohibition at FERC--and I understand that you're just staff, 
and that you're speaking for yourself--but couldn't FERC 
include a provision in a pipeline certificate that requires it 
to return land back to the landowner if the pipeline gets 
canceled or the company changes its mind? Couldn't you put that 
in the certificate?
    Mr. Morenoff. Mr. Chairman, traditionally, the Commission 
has viewed eminent domain on property rights as beyond its 
authority. That said, I do not have a case to cite that would 
say the Commission could not use its conditioning authority in 
that respect. I think that's an open question.
    Mr. Raskin. There's nothing in the law that stops you from 
doing that. And if you were interested in preserving the rights 
of people, like Mr. McLaurin, you would say that if a company 
turns tail and does a U-turn, that the land should go back and 
they should have to restore it. Could FERC refuse to approve 
future certificate applications from the same company unless 
they return and restore land in abandoned projects?
    Mr. Morenoff. Mr. Chairman, my answer would be similar. I 
think there is an open question as to the breadth of the 
possible conditions that the condition could impose. I do think 
that those conditions of authority is not boundless, and that 
is a type of condition has not been tested to date.
    Mr. Raskin. OK. After protests, I am aware that FERC has 
requested a plan from ACP about what it will do with hundreds 
of acres of land that were damaged in preconstruction activity. 
So, good for FERC for doing that. And I'm happy to learn about 
this. But I am not aware of any action, similar action taken 
for the Constitution Pipeline Project, which was also canceled 
this year. Do you think FERC will do the same thing with 
respect to the Constitution Pipeline Project?
    Mr. Turpin. Well, the Commission has overseen the 
restoration to the Commission's standards of the right-of-way 
that was engaged for the pipe--for the Constitution Pipeline. 
So, the Commission has done that look. That restoration--those 
activities ended last month with the restoration to the 
standards that the Commission had put forward.
    Mr. Raskin. OK. So, you do have the power, in other words, 
to compel the restoration of land to the status before it was 
taken for a project that never materialized?
    Mr. Turpin. No, no, sir. We have the authority--my 
understanding is we have the authority to direct the companies 
to restore the land to the standard the Commission had issued 
in its order.
    Mr. Raskin. But that standard could be a status quo answer, 
could it not?
    Mr. Turpin. I--that is outside of my expertise. I would----
    Mr. Raskin. I am now going over to the--I am now going to 
yield to the ranking member for five minutes. And we'll give 
him a comparable overage. Thank you both for appearing today 
and for your candid answers. Mr. Roy?
    Mr. Roy. I appreciate that, Mr. Chairman, and your 
indulgence for any comparable time. Although, these are 
important issues, so I don't mind that you went over any more 
than a few of our folks go over.
    And let me reiterate my general view on this, right? We 
have--differences of opinion in this body on the relative value 
use of natural gas. And moving oil and gas products, there's a 
lot of debate about that. And what I am trying to avoid is, I 
don't want pipelines and our debates over that to be used as, 
essentially, a ruse to basically jam up oil and gas. I think 
there's some in this body who would want to do that.
    On this straight-up issue, on the merits of it, if there is 
a pipeline that's going to exist, and are property rights being 
respected, I don't know that there's going to be any 
disagreement between Chairman Raskin and I on that, that 
question.
    And so, what I want to understand from Mr. Morenoff, you, 
or Mr. Turpin, explain to me quickly--because I have got five 
minutes. I have already burned a minute from my intro--is--
explain to me the difference in how this process works in just 
basic layman terms, and, say, an intrastate, right? In other 
words, I want to understand how this works and whether FERC has 
more or less power if you are trying to--if a new interstate is 
rolling from Canada all the way to Mexico, and it goes to West 
Texas and impacts some of my constituents or go through 
Oklahoma, how does that--how is that different?
    Mr. Morenoff, you got any perspective on that? Again, just 
a quick comparison.
    Mr. Morenoff. Thank you. I can speak to the FERC process, 
not to the Texas-specific process. But when it is an interstate 
natural gas pipeline, a certificate of public convenience and 
necessity would be needed by the prospective developer. They 
would go through the pre-filing process that Terry described, 
and then file an application with an opportunity for public 
participation throughout.
    Mr. Roy. Well, let me ask you this, because I can pull up a 
model or some sheet or something that walks me through all 
that. I'm trying to understand is anybody here expert enough or 
know--Mr. Turpin, do you know, is it--would you--could you 
stipulate whether it's easier or harder for FERC to get a 
pipeline than if we were to say, try to create a national 
interstate highway from Canada to Mexico and how this compares?
    Mr. Turpin. I have no ability to answer that. My entire 
professional career has been on the natural gas pipeline side 
with the agencies not been involved in infrastructure.
    Mr. Roy. Mr. Raskin, I'd love for our staffs to have a 
side-by-side comparison. I'd like to know that better. The 
reason I ask is because I don't view them dramatically 
differently. There are environmental impact differences, and 
there are things that we could debate.
    What I am trying to get to is, I don't want to see a 
citizen of the United States whose got property not be able to 
get the full hearing he or she needs to have for whatever the 
public use is, right? Whatever that question is, a road, a 
highway, a public utility, a pipeline, whatever. We are going 
to have some disagreements as a policy matter about the merits 
of having a pipeline. I don't want that to be the issue. I want 
to know, all right, we're going to have a pipeline because 
that's good for the United States. And it is a public use in my 
view, and there may be some disagreements by some on that. But 
I want to know that property rights are being respected.
    And on the question of the valuation, on the eminent domain 
and what Chairman Raskin was going down--you know, I would be 
mortified if there's a--an American citizen in North Carolina 
or Texas or anywhere that have property, and they weren't made 
whole for whatever FERC was doing. And so, I'd like to know 
more about that and those questions. What I'd do is, I'd put in 
perspective what I said in my opening statement is about 1.97 
percent, I think is the stat, 1.67 percent of all of the 
tracts, the property actually end up in eminent domain process.
    So, what that means is, right, the other 98-point whatever 
percent are contractually sorted out. And so FERC comes in or--
I mean, the pipeline comes in, an agreement is reached, and 
say, great, you are going to pay me X, and you can use my 
property, or take my property or run it over across the corner 
of my property. And to answer the question from Chairman Raskin 
about valuation, because your property values go down. Well, I 
would say that depends.
    In my observation, some people's property gets absolutely 
ruined. Like live oak trees in my central district get ruined, 
or a pipeline runs right by your house. Well, that's a 
valuation question. Or some people have a 500-acre tract, and 
it goes over the corner of the property or their land, they got 
paid well for it. There's no real diminishment in the value of 
your dirt. It's going to be a property-by-property question.
    What I want to do is make sure that we have gotten this 
more of a speech than questions, which I didn't mean it to be. 
I want to know the safeguards. And I'd like to have--and I 
might submit some written questions--but I'll just ask you Mr. 
Morenoff and Mr. Turpin: What are the safeguards to ensure that 
property owners are getting the valuation they deserve, and the 
ability to question the taking in the first place?
    They should have that ability, and they should have it 
protected. If somebody is sitting on their property and one day 
FERC shows up, or the pipeline company shows up and says, ``I'm 
taking your property for a pipeline,'' they ought to be able to 
say, ``Hell, no'' unless, you know, the public is going to make 
a decision that this is public use. And then we're going to go 
through a hearing. And I know my valuation is going to be done. 
Just like a highway, I might get mad about it, but we have 
those processes.
    Can you all explain what safeguards are in place for that? 
And I have gone over five minutes, Chairman Raskin, so I'll 
leave it at those questions.
    Mr. Morenoff. Ranking Member Roy, I think there are many 
protections that are built into the FERC process. There is 
extensive public participation, including for affected 
landowners to participate, to express their grievances. I think 
the Commission, just from the past year, has built in 
additional protections, including with the issuance of the 
final rule that you had noted, which ensures that construction 
will not begin on the pipeline while a hearing is pending at 
the Commission, as well as the Commission's efforts to 
accelerate action on those rehearings. I think that combination 
ensures that the pipeline construction will not begin until the 
affected landowner has the opportunity to go to court, if that 
person wishes to do so.
    As to the situation that you were referring to where 
compensation has not been provided in an eminent domain 
context, I share your and the chairman's concerns about that 
situation. That is a question that would have been resolved in 
an appropriate Federal or state court. And I would imagine that 
the court would be able to enforce its decision.
    Mr. Roy. But isn't it true--Chairman Raskin indulge me just 
one more second--that sometimes people still get screwed. I 
mean, look, I have established where my biases are on some of 
this, about making sure that pipelines exist. But I do want to 
make sure that--I know we say during a hearing--I just want to 
know and that there it is--that the judge can make a 
determination and--but what can FERC do to ensure that, look, a 
pipeline was done and somebody's land was impacted and, just, 
you know, are there any other additional safeguards that might 
be put in place that we are at least observing to ensure that a 
property owner is not left wondering why their, you know, 
property they got from their parents, or they bought and worked 
it, you know, made themselves got messed up, ruined, taken, or 
whatever, and they didn't get the valuation they thought they 
should get? Chairman Raskin, I'll stop.
    Mr. Raskin. No, please take your time, Mr. Roy. I like 
where you're going with that.
    Mr. Roy. Well, if I start ranting about Democrats and 
pipelines, you're going to cut me off. Anyway. Go ahead.
    Mr. Morenoff. Ranking Member Roy, I think that the 
Commission has and continues to improve our processes to ensure 
that the landowner has the opportunity to be heard, has the 
opportunity to have the day in court, and to ensure that the 
land is put back to an appropriate condition, as Terry was 
describing earlier. Specifically out of its compensation, I 
don't believe that is within FERC's authority. I think that is 
an issue for the Federal or state courts.
    Mr. Roy. Mr. Turpin, do you have anything to add to that?
    Mr. Turpin. Yes, I think the entire process--I mean, most 
projects are in a 1-to, 2-to, 3-year cycle of review. And in 
the prefiling process at the beginning of it, we require the 
companies to reach out to all the landowners, so that 
landowners can give input as to the route selection and impacts 
it may have on their property. And it is a rare project, if 
there ever was a project, that wasn't altered by that, by those 
conversations.
    And, so, I do think the landowners have an ability to 
provide input. Move to the company that's developing the 
project, as well as to FERC staff throughout the review. And in 
many cases, if the proposed design has changed before it comes 
to the Commission, that addresses the issues, and other staff 
look at alternatives. And, in some cases, the Commission orders 
reroutes to address issues.
    But, in general, I mean, this is infrastructure that is 
crossing multiple areas, multiple jurisdictions. It is almost 
always on privately held land. So, moving to off-private land 
is--usually isn't feasible, and that's just the nature of long 
linear infrastructure.
    Mr. Roy. I yield back, Mr. Chairman. I've taken too much 
time.
    Mr. Raskin. Thank you, Mr. Roy. I am now going to recognize 
Chairwoman Maloney for her five minutes of questions.
    Mrs. Maloney. Thank you, Mr. Chairman, and I thank the 
panelists. On July 2, 2020, former FERC Chairman Neil 
Chatterjee and Commissioner Richard Glick issued a joint 
statement about the D.C. Circuit opinion in Allegheny Defense 
Project v. FERC. The statement asked Congress to amend the 
Natural Gas Act, nd I quote, ``Consider providing FERC with a 
reasonable amount of additional time to act on rehearing 
requests,'' end quote.
    For the purpose of simplicity, I am going to refer to 
rehearing requests as appeals. The subcommittee's investigation 
this year revealed that on average, FERC took 212 days, or 
about seven months, to issue a decision on landowners' appeals.
    So, Mr. Turpin, how much time do you believe is reasonable 
for FERC to act on appeals?
    Mr. Turpin. Well, I think the statute--and it's clarified 
by the court--has stated that the Commission has 30 days or 
those appeals are denied, and folks can then seek appellate 
review. The issues typically raised in rehearing are technical 
and complex. The Commission spends a lot of time trying to sort 
those issues out and provide reasoned decisions. I don't know 
if Mr. Morenoff would have an additional statement to add.
    Mr. Morenoff. Representative, thank you for the question. 
Well, both Chairman Chatterjee and Commissioner Glick have 
stated that they defer to Congress on whether and to what 
extent to extend that period. I think the legislation 
introduced by, I believe, Representative Malinowski, with 
respect to the Natural Gas Act, and Representative Casten, with 
respect to the Federal Power Act, establish what would strike a 
reasonable balance between additional time for the Commission, 
and continuing to ensure prompt action on rehearing.
    Mrs. Maloney. And what is that time that they suggest?
    Mr. Morenoff. Thank you. I believe for the Natural Gas Act, 
it is approximately 60 to 90 days. And I believe for the 
Federal Power Act, it is approximately 120 days, reflecting the 
varied complexity that is typical as to the rehearings under 
those statutes.
    Mrs. Maloney. In the same July statement, FERC stated that 
any legislation extending the time for appeals should ban 
companies from seeking eminent domain during the FERC appeal 
period. And I could not agree more. If you're in an appeal, you 
shouldn't be able to go in there and grab someone's property. 
So--but FERC doesn't need an act of Congress for that. I think 
you should be able to do that on your own.
    So, Mr. Morenoff, does FERC have authority to suspend 
certificates of public necessity?
    Mr. Morenoff. Yes, Representative, the Commission could 
suspend--could issue a stay with respect to the order granting 
a certificate.
    Mrs. Maloney. So, in that case, Mr. Morenoff, does FERC 
even need Congress to pass a law prohibiting eminent domain 
while an appeal is pending? Why can't FERC suspend the 
certificate on its own accord?
    Mr. Morenoff. Representative, I think it is correct, the 
Commission could, as a matter of force, issue that type of 
stay. I think that is a very broad action if the Commission 
were to take. And as I had noted earlier, the Commission has 
traditionally viewed the eminent domain provision of the 
statute as providing that authority to the certificate holder. 
For that reason, I do agree with the request from Chairman 
Chatterjee and Commissioner Glick that Congress taking that 
action would be a cleaner way to ensure that if the 
Commission--what would be the cleanest way to ensure that that 
action is properly taken within statutory authority.
    Mrs. Maloney. Would you agree that eminent domain could not 
be granted on a suspended certificate?
    Mr. Morenoff. I think that is correct.
    Mrs. Maloney. And Commissioner Glick has, in fact, 
suggested that FERC should suspend certificates while an appeal 
is pending. And I strongly suggest that FERC adopt that 
practice, or that Chairman Raskin legislate that practice. It 
seems totally fair to me.
    And I must admit, I'm a bit confused as to why FERC 
believes it needs Congress to act on this. FERC created a 
tolling order procedure out of whole cloth. Nothing in the 
statute provides FERC the explicit authority to issue tolling 
orders, which primarily benefit pipelines. But FERC did it 
anyway. And yet, they don't seem to be willing to be as 
creative or supportive when it comes to measures that could 
benefit landowners. I find that troubling.
    So, I urge FERC to leverage all tools at its disposal to 
restore the proper balance of power between big natural gas and 
big companies, and provide landowners, and if not, I hope that 
the Chair and the Ranking Member act legislatively to address 
this. And I yield back. And, again, I thank all the 
participants and the Chairman and Ranking Member for holding 
this important, really, balance of power issue for our 
communities. I yield back. Thank you.
    Mr. Raskin. Thank you for those very thoughtful points and 
questions.
    I now yield to Mr. Armstrong of North Dakota for his five 
minutes of questions.
    Mr. Armstrong. Thank you, Chairman Raskin. And I just--I 
want to piggyback on a couple of things Congressman Roy said, 
and the first being that I have had an opportunity in North 
Dakota to deal with these issues, both in the private sector 
and the legislative sector, since the Bakken shale problem 
started occurring in 2007 and 2008. I had an opportunity to 
work through the state regulatory agencies to rewrite all of 
our intrastate pipeline regulations for the whole state of 
North Dakota.
    We set up a program at the Department of Agriculture to 
actually have landowners who are dealing with easement 
problems. More often than not, six months after a pipeline was 
put in, we have hard winters, sometimes we have erosion issues 
in the spring, and allowing landowners, farmers, and different 
people to navigate those positions.
    But I also think it's important to point out this isn't--
that we have seen an absolute attack on the oil and gas 
industry in my two years. Whether it's this committee or 
Financial Services, we have heard members talk about starving 
energy companies of access to capital. We have had a vote on 
the floor of the U.S. House in which almost every Democrat in 
the U.S. House voted to ban the transport of liquefied natural 
gas by rail.
    These issues are very important in North Dakota. We're the 
geographic center of North America. We produce a lot of things, 
oil and natural gas, that have to get to market in other 
places. And you can follow this through as it goes everywhere. 
The Williams pipeline abandoned a project that after New York 
had continued to [in]the cost from 600 to $1 billion. Duke and 
Dominion abandoned the Atlanta Coast Pipeline after they 
secured a 7-to-2 Supreme Court victory, because of a ruling in 
my neighbor state on the Dakota Access Pipeline, which threw 
out the longstanding Corps--nationwide permit 12 Corps of 
Engineers Program.
    So, to deal with these issues is--and being able to get our 
products to market is incredibly important, not just for the 
state of North Dakota, but for the United States energy 
independence.
    That being said, I have also been in numerous fights with 
oil subsidiaries in my home state over private property rights. 
And so, I just start with an eminent domain should be used 
sparingly, if at all. If you are doing those things, there is a 
constitutional right.
    So, I would start with Mr. Turpin. Would it be realistic to 
build this infrastructure without the use of eminent domain?
    Mr. Turpin. As I said in my earlier remarks, I mean, long 
linear infrastructure gets built on private land. I mean, it's 
just not possible without private land. And I think Congress 
recognized the weight and the seriousness of the need for 
eminent domain for certain types of infrastructure when it 
added it to the Natural Gas Act.
    Mr. Armstrong. And, Mr. Morenoff, then I'll go to you, and 
I will make it more specific. When you are dealing with a 
pipeline, particularly in troubling geographic areas, if you 
have 999 landowners say yes, and one says no without the use of 
eminent domain, do you have a pipeline?
    Mr. Morenoff. No, there may be situations where eminent 
domain is necessary.
    Mr. Armstrong. OK. And then, so now we're talking about 
that, and we know we need to continue it--and any realistic--by 
the way, this is realistic for any energy project. If some of 
my friends have their way and figure out a way to stave off and 
choke off all carbon fuels, oil, and natural gas, we are going 
to need eminent domain to put transmission lines. I can 
guarantee you that because the infrastructure--I served on the 
Select Committee on the Climate Crisis, and the infrastructure 
for those projects does not exist at all. And as far as I am 
aware, the eminent domain procedure for transmission line in a 
pipeline is not significantly different, is it?
    Mr. Morenoff. No, indeed there is not comparable siting 
authority for the Commission under the Federal Power Act, so 
that would be addressed on the state level.
    Mr. Armstrong. So, once we're dealing with these pipelines, 
one of the things I think that really is important--because we 
know this is going to continue, and it has to continue. Our 
energy independence and our economy depend on it. So, can you--
and I ask you both this--can you discuss the steps that FERC 
takes to ensure that companies actually do properly restore the 
lands? Because oftentimes, one--I mean, these are contentious 
situations that occur one way or the other, but once they occur 
that, that is the next step in the process. So, do pipeline 
companies have to provide FERC with status reports throughout 
the process?
    Mr. Turpin. They do. The Commission requires the companies 
to have environmental inspectors that they employ to do 
monitoring and to file reports. We often employ compliance 
monitors to be in the field looking at restoration activities 
and construction activities, with the entire goal to ensure 
that the construction complies with the Commission standards 
with the plan and procedures that was put out, and that 
restoration is completed along those right-of-ways once the 
project goes into service.
    Mr. Armstrong. Does FERC have--I mean, do you have 
employees that do onsite screening inspections, or for ongoing 
pipeline projects?
    Mr. Turpin. Yes. Yes. They Office of Energy Projects that I 
work in, our staff will do field inspections. More often, we 
employ contractors and compliance monitors to be in the field, 
because they're there at the project for the entire duration of 
the construction on that specific project. But we have them 
there to monitor just those circumstances.
    Mr. Armstrong. And you guys have a helpline as well, right? 
Like we sent the--in North Dakota, we set it up in the A 
Department. Just because we're a rural state, most of the 
people we're dealing with had some knowledge base, or had some 
relationship with some agriculture program in the state. But 
you guys have a helpline as well?
    Mr. Turpin. Yes.
    Mr. Raskin. The gentleman's time has expired. But, please, 
Mr. Morenoff, answer his question.
    Mr. Morenoff. Yes, that's correct. We do have a landowner 
helpline that is part of our Dispute Resolution service based 
in our Office of the General Counsel that coordinates with 
other FERC staff as appropriate as Terry was describing.
    Mr. Armstrong. And then, thank you Mr. Chair--Chairman 
Raskin for letting me go over a bit. I would also just say, one 
game of paper, rock, scissors is actually 2 to 1 against.
    Mr. Raskin. See, I thought it's like if you have two rocks, 
it's a tie. But then the paper beats the rock, but the rock 
beats the scissors. But, we will figure it out later. I was 
trying to figure it out.
    I am going to call now on Ms. Wasserman Schultz for her 
five minutes of questioning.
    Ms. Wasserman Schultz. I am just going to resist temptation 
to--to even get in that fight, though it's difficult. Thank 
you, Mr. Chairman. I'm really glad we're having this hearing 
today because this is an opportunity to highlight a lesser 
known harm caused by fossil fuel pipeline. We know that there 
is grave harm that building fossil fuel infrastructure causes, 
and it's certainly an obstacle to getting to clean energy as 
soon as possible.
    But today, we have been talking about FERC certificates. 
And these start the pipeline approval process, but they don't 
authorize construction on their own. When the pipeline company 
is ready to build, it has to come back to FERC to get another 
approval. FERC policy prohibits a pipeline company from 
beginning construction until it has all the necessary permits 
from other non-FERC Federal and state agencies. For example, 
people are authorizing pipeline construction. Companies must 
comply with bedrock environmental statutes to ensure that its 
projects won't cause significant harm to natural resources or 
other interests or to ensure that any harm produced is 
mitigated. Mr. Turpin, do I have that right so far?
    Mr. Turpin. Yes, ma'am.
    Ms. Wasserman Schultz. OK. So, despite this, FERC has 
created a loophole to allow companies to begin action on the 
project under what FERC calls, quote, preconstruction activity.
    And, Mr. Roy, I appreciate your comments about being 
careful about eminent domain and how we use it, but 
preconstruction activity is allowed even if the pipeline 
doesn't have all its permits.
    Our investigation revealed that over the past 20 years, 
FERC has authorized preconstruction activity for 242 pipelines 
that have not yet received all necessary permits. And I want to 
talk about one notable case--the story of the Holleran family 
in Pennsylvania. The Hollerans have owned a small maple syrup 
farm that's in the path of the then proposed Constitution 
Pipeline. They refused to sell access to their land, so the 
pipeline company took them to court and won an easement through 
eminent domain.
    In January 2016, FERC allowed the company to proceed with 
preconstruction activity and so-called limited tree felling. 
This pipeline company cut down 550 trees [inaudible]--I'm 
sorry. Can I ask for a pause, Mr. Chairman? There's someone who 
is unmuted that has a lot of background noise.
    Thank you.
    So, if I can just be given a little latitude.
    So, the company--the pipeline company cut down 550 trees on 
the Hollerans' land, including 90 percent of the trees they 
used for their maple syrup business, some of which were over 
200 years old. This limited preconstruction activity all but 
destroyed their business. By the time we launched our 
investigation earlier this year, four years had passed, but the 
pipeline still hadn't been built because of ongoing litigation 
about state permits.
    Mr. Turpin and Mr. Morenoff, do you think it was fair for 
this family business to lose four years of revenue, even though 
no construction was actually happening?
    Mr. Turpin. I'll go first. No, that is not an outcome that 
the FERC review process was ever intended to allow to have 
happen. I would like to clarify, though, that the Commission 
doesn't have a category of clearances for preconstruction 
activities. Any activity that is undertaken needs to have the 
permits for that activity, whether that's tree felling or 
anything else involved with the pipeline construction.
    Ms. Wasserman Schultz. But I think you'd agree--and it 
sounds like you do agree--that--I mean, if the purpose of 
eliminating trees on the Hollerans' property was to begin the 
process of clearing the way for the pipeline to be built, when 
you don't even know that the pipeline will ultimately get 
built--and it, to date, has not been. In fact, it's been 
canceled--then that kind of preconstruction activity, permitted 
one permit at a time is premature and inextricably and 
permanently damaging to this property owner and business 
owner's businesses. Wouldn't you agree?
    Mr. Turpin. Yes. I'm sorry, I had trouble with the mute 
button. Yes, and that's why the Commission changed its 
approach. Constitution was the first time, in my knowledge, 
that we'd come across a circumstance where once construction 
was authorized and moving forward, that the other permits 
weren't gotten.
    So, after that, the Commission, in looking at the notices 
to proceed with construction, moved to a stance of ensuring--of 
not allowing construction if a unit--if an operable unit of the 
pipeline project couldn't be developed with all the permits in 
hand before any construction could start. That's not to say 
that every permit across the entire project is needed but ones 
that--basically, it's an approach to eliminate the potential 
that you have stranded construction that can never be used.
    Ms. Wasserman Schultz. OK. I want to explore this a little 
further with you. To add insult to injury, in February, after 
years of litigation over permits, the company actually 
abandoned the project completely. The termination of this 
unnecessary fossil fuel project was a big win in the fight to 
protect our Nation's waterways--that's not what we're debating 
here right now--but at the end of the day, the Holleran family 
maple syrup business was destroyed for nothing.
    So, Mr. Turpin, can you expand on what is FERC doing to 
make sure this never happens to anyone else?
    Mr. Turpin. It's that approach of looking at--looking at 
notices to proceed requests to ensure that----
    Ms. Wasserman Schultz. I'm sorry. Just so that there's not 
a lot of gobbledygook that people can't understand. What--how 
have you changed your policies to make sure that no business 
owner or property owner ever has the impact, due to FERC's 
policies--approval policies, ever has to go through that again 
and face the hugely damaging economic impact that the Hollerans 
have faced?
    Mr. Raskin. OK. And the witness can answer this question, 
please.
    Mr. Turpin. By ensuring that when a pipeline moves into 
construction, that the full unit of the--an operable unit of 
the pipeline is what's authorized.
    Ms. Wasserman Schultz. I don't know how the clearing of 
trees would have--I don't know how that correction would have 
prevented the 550 trees being felled and ruining the Hollerans' 
business. How would it have prevented that?
    Mr. Raskin. The gentlelady's time is expired.
    Did you want a final comment on that, Mr. Turpin?
    Mr. Turpin. Sure. The situation that developed on 
Constitution was one where construction and tree felling was 
authorized before the project had received permits in another 
state that were necessary for the project to ever flow gas. So, 
that set of circumstances is prevented by approaching those 
clearances for construction in such a way that even if the 
companies got the permits for the specific action they want to 
undertake, if they are still reliant on a separate permit in 
another place to ensure that that infrastructure can ever be 
used, can ever flow the gas, and they don't have that permit, 
then construction isn't authorized to move forward.
    Ms. Wasserman Schultz. OK. I'm not sure I understand or 
that that's clear, Mr. Chairman, but I appreciate the 
indulgence.
    Mr. Raskin. Yes. Just to complete the point, Mr. Turpin, 
are you saying the certificate would not issue in the first 
place until all of the necessary permits were obtained by the 
company?
    Mr. Turpin. No, Representative. What I'm saying is that 
once the Commission makes a public interest determination, 
review for compliance, getting the other permits, initiating 
construction action, is delegated down to staff. Staff reviews 
the filings that the company makes. If the company doesn't have 
the permits needed for a section of construction, that would--
that allows the construction to actually flow gas, to be 
useable infrastructure, then we no longer issue notice to 
proceed to allow it moving into construction.
    Mr. Raskin. So, at that point, they're forbidden to 
proceed?
    Mr. Turpin. Yes. They have to have specific authorization 
to proceed. And so it if that authorization is not issued, they 
cannot move forward.
    Ms. Wasserman Schultz. Would that have stopped the trees 
from being felled, Mr. Chairman?
    Mr. Raskin. Well, Mr. Turpin, we'll give you one final 
comment, and then we've got to go to Mrs. Miller. It's her 
turn. But, yes, would what that stopped--would that have saved 
the trees in this case?
    Mr. Turpin. I'm not--I'm not certain. I mean, it's 
difficult for me to speculate on that.
    Ms. Wasserman Schultz. It wouldn't have. It wouldn't have. 
That's the point.
    Thank you very much.
    Mr. Raskin. Ms. Wasserman Schultz, thank you very much for 
your questioning.
    Mrs. Miller, it is your turn.
    Mrs. Miller. Thank you, Chair Raskin and Ranking Member 
Roy. And I want to thank both of our witnesses for being here 
today. These conversations are very important for us to have.
    You know, everybody wants their lights on and their homes 
heated. The rise in usage of natural gas has led to American 
energy independence and American energy dominance. Between 2005 
and 2017, the United States decreased emissions by 14 percent, 
a large part because of natural gas.
    For over a century, my state of West Virginia has been an 
energy producing state. The natural gas industry has provided 
new and high-paying jobs in my state and throughout Appalachia. 
This has helped, as burdensome government regulations caused 
the loss of coal jobs. Natural gas continues to be vital for 
our energy security, our national security, and overall 
reducing of global emissions.
    My colleagues across the aisle would have you believe that 
solar and wind can bring our carbon emissions to zero while 
easily powering our country. In places like California, where 
they have unachievable renewable energy standards, natural gas 
has helped keep homes, businesses, and schools powered when 
renewables cannot.
    According to the U.S. Energy Information Administration in 
California, the most populous state in our Nation, nearly two-
thirds of the households use natural gas for home heating, and 
almost half of the state's utility scaled electricity is fueled 
by natural gas. How does California get this critical source of 
energy, you might ask. By pipelines.
    Pipelines are necessary to transport natural gas, both to 
ensure American homes can keep their lights on, but also it's 
necessary to trade with our allies. Many of our European allies 
rely on Russian natural gas, which is not only worse for the 
environment, but it is also a major national concern for 
security reasons.
    It is also necessary to not only be cognizant of our 
citizens' property rights, but also to work with our citizens 
and communities on pipeline projects. I believe that we can do 
both of these things reasonably.
    Mr. Turpin, how do FERC and pipeline companies engage with 
landowners and communities when they are considering new 
pipeline projects? How does the community engage in the 
process?
    Mr. Turpin. As I--thank you, Representative. As I had 
mentioned earlier, it starts generally in the prefiling process 
while the company is still designing its project. We require 
the companies to--we provide this venue so that all 
stakeholders can come to the table and give input, with the 
idea being that input into the project as it is being designed 
is much more effective than attempting to address issues that 
come up with a route that's already got a lot of study and a 
lot of factors baked into it.
    So, during prefiling, we require the companies to reach out 
to all the affected landowners, and they are free to file 
comments also to the Commission and its staff, and we will look 
at all those comments in looking at both the proposal by the 
company as it develops, as well as in suggesting alternatives 
throughout the project review.
    Mrs. Miller. I think we all understand that we have learned 
through our history the right way and wrong way to do things. 
People with orange groves, you know, when we've run roads right 
through their farms. We've all learned what's necessary. Can 
you discuss the importance of natural gas for American energy 
independence?
    Mr. Turpin. That would be something that I'm not able to 
discuss. My role at the Commission is really just reviewing the 
proposals that come in and it's looking at the transportation 
routes of that commodity, not making an assessment on the need 
of that commodity.
    Mrs. Miller. Have you been alive during the time when we 
were dependent on other countries for our energy?
    Mr. Turpin. Yes, Representative.
    Mrs. Miller. So, you would understand that.
    How can exports of American natural gas improve the 
national security for our allies in Europe?
    Mr. Morenoff. Representative, Chairman Chatterjee has 
spoken many times with respect to that view, expressing his 
belief that the export of natural gas can be very helpful in 
the ways that you were describing.
    Mrs. Miller. Thank you. And how can natural gas help reduce 
carbon emissions while they are also providing key baseload 
energy? Either one of you.
    Mr. Morenoff. Representative, I think that is a question of 
what fuel is being displaced, but there may be situations where 
natural gas will lead to lower carbon emissions, relative to 
the----
    Mrs. Miller. OK. Thank you.
    I yield back my time.
    Mr. Raskin. Thank you very much, Mrs. Miller.
    I now recognize Congresswoman Robin Kelly from Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    FERC's processes and regulations are incredibly convoluted 
and difficult to understand, and landowners are often left to 
their own devices to try and figure it out. This is a stark 
contrast to pipeline companies who are repeat players with 
high-powered attorneys who know the system inside and out.
    Mr. Turpin, do you agree that there is an inherent 
imbalance of power between individual landowners who know 
nothing about FERC and big energy companies with corporate 
attorneys?
    Mr. Turpin. No, I don't. I think the Commission's processes 
provide equal opportunity for anyone to make their voice heard 
in the Commission's considerations.
    Ms. Kelly. Right. But there's a difference between when you 
have a high-powered attorney and when you're just an everyday 
landowner, in my opinion.
    Advocates have pointed out that there is an imbalance and 
has been an imbalance for years. We have heard that the 
pipeline industry has many advantages over landowners in 
navigating the FERC process, including the ability to regularly 
communicate with FERC staff about their projects.
    In 1978, Congress passed the Public Utility Regulatory 
Policy Act, or PURPA, which included a provision directing FERC 
to create an Office of Public Participation. Such an office 
would provide resources for folks who want to get involved in 
the FERC process but don't have the means or prior knowledge to 
do so.
    Mr. Morenoff and Mr. Turpin, do you agree that an Office of 
Public Participation would be useful to landowners?
    Mr. Morenoff. Representative, I think that there are many 
ways that the Commission has sought to improve the experience 
at FERC. With respect to the Office of Public Participation in 
particular, my understanding is that since that authorization, 
Congress has never appropriated funds for that purpose, and my 
understanding is, in the absence of such an appropriation, FERC 
does not have the authority to provide such funds even if the 
office were created.
    Ms. Kelly. Mr. Turpin, were you answering?
    Mr. Turpin. No, no. No, Representative.
    Ms. Kelly. OK. Well, despite 40 years, as you know, has 
passed since Congress called on FERC to create the Office of 
Public Participation and it has not been created. And you seem 
to be inferring it's because of money that it has not been 
created.
    Mr. Morenoff. Representative, I think the Commission could 
create an additional office, and different chairmen have 
created different offices through their role and the proper 
assignment of staff, but I think specifically with respect to 
providing the funds that you were describing, I believe that 
would require a specific appropriation from Congress.
    Ms. Kelly. Advocates have noted that FERC has never 
requested money for such an office, so a lack of money seems 
less likely. Makes you wonder about the lack of will.
    PURPA also has a provision that would allow FERC to provide 
for compensation to landowners for fees they may encounter, 
which would significantly reduce the barriers for them to be 
able to participate in the FERC process.
    Richard Averitt, a Virginia landowner, who was in the 
pathway of the Atlantic Coast Pipeline, spent more than 
$100,000 defending his land in numerous court challenges. He 
has said he has no regrets about spending that money but thinks 
there should be a law that allows landowners to be compensated 
for reasonable fees. He stated, and I quote, ``we're lucky we 
have the resources to fight it, but the way all of this is done 
is an outrageous abuse of landowners. You have everything to 
lose.''
    Would you agree that the average landowner attempting to 
protect his or her right to their land doesn't have $100,000 to 
defend themselves against a large pipeline company?
    Mr. Morenoff. Representative, I suspect that's correct.
    Ms. Kelly. And so if you suspect it is correct, why hasn't 
FERC created the PURPA provisions allowing landowners to 
request funds?
    Mr. Morenoff. Representative, again, my understanding is 
that FERC would not be able to provide such funds absent a 
specific appropriation.
    Ms. Kelly. And then, Mr. Turpin, can you please tell us 
exactly what steps would need to be taken for FERC to provide 
this resource to landowners, and what should FERC do, and what 
should Congress do so maybe we can make some changes?
    Mr. Turpin. Well, I think, as my colleague has mentioned, 
it would have to be in appropriations. It would have to be 
addressing FERC's provision of this compensation to the private 
parties in these proceedings. We'd need to have--we would need 
to have instruction from Congress on that.
    Ms. Kelly. OK. Mr. Chairman, I don't see the clock, so I 
don't know if I'm out of time. Oh, yes, I am. OK. Well, I 
definitely, for one, would like to see something done so we can 
be of more assistance to our landowners. Thank you.
    Mr. Raskin. Ms. Kelly, thank you for your promptness in 
your questioning.
    And we will now go to Mr. Cloud of Texas.
    Mr. Cloud. Thank you very much, Chairman. Appreciate the 
topic. Energy is extremely important to where we are as a 
Nation right now.
    Of course, you know, the world's demand on energy is 
growing, and so the question becomes, who's going to meet the 
world's demand for energy? And I think what we've seen lately 
with the amazing technological advancements with natural gas, 
it's really put the United States on the forefront of being a 
world leader in energy production. That has done a number of 
things. It's helped with our environment. It's helped with us 
being able to have strength going to the negotiating table when 
it comes to trade, when it comes to national security.
    Indeed, we've had three historic peace deals in the Middle 
East. It's understandable that those may not have happened 
without the strength that we now have in the energy sector. So, 
it's important for us to understand the role that we do play in 
the energy world and how much of a benefit it is.
    And, Mr. Turpin, could you speak to, what's the cleanest 
way to transport natural gas, that we know of?
    Mr. Turpin. Again, sir, my expertise is in analyzing the 
proposals for pipelines. I don't have the background for that.
    Mr. Cloud. Well, I think we understand that it is 
pipelines.
    Could you speak to, then, the process leading up to filling 
out an application with FERC? Is it fair to say that many 
pipeline companies carry out prefiling activities never 
formally apply? There's a lot of work that goes in even before 
the application. Is that correct? Can you speak to that?
    Mr. Turpin. Yes. Yes, there is. Actually, a lot of 
companies, from my understanding, will begin sort of conceptual 
investigations and design of projects and never even reach the 
prefiling process. There are a smaller amount of companies that 
start prefiling and then back out later.
    It is typically no less than six months on a pipeline. More 
often it is a year or more, the prefiling review. And again, 
it's where the pipeline is attempting to design its project 
with input from the affected stakeholders so that when it does 
make a formal application to the Commission, it is attempting 
to address all the issues that people have raised about the 
project. So, it is a long process.
    Mr. Cloud. OK. Is FERC--you touched on this before, but is 
FERC the only agency that signs off on pipeline projects?
    Mr. Turpin. No. Any----
    Mr. Cloud. Or any project of this? Go ahead. Either of you 
can answer. Go ahead.
    Mr. Turpin. I wouldn't--no. The--the--FERC is often the 
agency that issues one of the principal or lead permits, but a 
project will have to comply with all Federal authorization.
    Mr. Cloud. What are some of the other agencies?
    Mr. Turpin. Oh, it depends on--you know, it's very specific 
to the project and the type of resources that it crosses. It 
can involve Clean Air Act permits from the EPA, Clean Water Act 
permits at the state level. It involves coordination and 
clearances from Fish and Wildlife Service, National Marines 
Fisheries Service on species consultations, as well as 
coordination with the advisory council on historic properties.
    Mr. Cloud. OK. And any company wanting to build a pipeline, 
even if FERC's authorization certification comes first, they 
still need to be approved by all these other agencies. Is that 
correct?
    Mr. Turpin. That is correct.
    Mr. Cloud. OK. Thank you, Chairman. I appreciate the time, 
and I yield back.
    Mr. Raskin. Thank you very much for your questioning, Mr. 
Cloud.
    We come now to Ms. Norton for her five minutes.
    Ms. Norton. Thank you very much, Mr. Chairman, and I 
certainly appreciate this hearing, because I think it is 
important to straighten out where we really stand.
    Now, nobody on this committee is against natural gas. 
Natural gas is an important step to be taking now in the fight 
to alleviate climate change. What we're talking about here does 
not seem to me to be hugely impossible for industry to take. 
But we find that FERC, the regulatory agency, falls short of 
fully enforcing its obligation. That's the problem.
    Instead of requiring pipelines to fully repair property 
before being allowed to use the pipeline, FERC usually allows 
the pipeline to go into service before restoration. So, what 
that means is that the pipeline can begin profiting while 
dragging its feet on repairs. So, you can see why the committee 
sees a remedy here that apparently FERC has not seen.
    So, I'd like to ask Mr. Turpin why FERC doesn't require 
companies to complete restoration before allowing them to turn 
the pipeline on. That would be a pretty simple solution here. 
Wouldn't it be a minor delay to ensure timely repairs, rather 
than begin profiting before the landowner is made whole?
    Mr. Turpin. So, the Commission does--the Commission does 
require companies to restore land. Often that--what is looked 
at is the trajectory of restoration that they're on. 
Restoration can take multiple years, which is why the 
Commission's standard is that the right-of-way needs to be 
monitored and inspected for at least two growing seasons. What 
we're looking for is the restoration of vegetation, that proper 
drainage is restored, and often those things can't be assured 
until after one or two growing seasons.
    In addition, there can be pipeline subsidence after--or 
right-of-way subsidence after the pipeline is installed. So, 
rather, we look for the company taking the responsible action, 
recognizing that a restoration of things like vegetation can 
take some time.
    Ms. Norton. Yes, but you speak about the restoration being 
completed within two years. Let me give you another example, 
because two years is a long time to wait for restoration. I 
want to give you the case of the Midship Pipeline, because 
that's where we saw the kind of damage that brings on a hearing 
like this.
    FERC let it go into service in April of this year, but that 
was after Midship promised to complete the full outstanding 
repair by the end of June. Now we're more than five months 
later. Those farmers are still waiting and have lost yet 
another growing season due to Midship's delays. That's after 
already having lost several seasons during construction.
    I suspect that those repairs had to be done--if those 
repairs had to be done before Midship could turn the pipeline 
on, the farm would have long since been repaired. Don't you see 
the quid pro quo there, Mr. Turpin?
    Mr. Turpin. I think restoration activities are always 
dependent upon weather and lots of circumstances. In the cases 
you're talking about on Midship, there had been a substantial 
amount of rain throughout parts of the construction and 
restoration. And what we've seen is, the longer the restoration 
gets--drags on because of inefficiencies or because of 
difficulties, the more difficulties that pile up. So, that is a 
situation we still continue to look at, but the bottom line is, 
the--Midship will be required to restore those rights-of-ways 
to the conditions that the Commission establishes. I mean, 
point blank, that's it, they will be required to restore them.
    Ms. Norton. Of course, they're required to restore them.
    Mr. Chairman, there simply is no equivalence between 
restoration and operation. Operation, it seems to me, is the 
overall--has the overall advantage with FERC, and as a 
committee, I believe we have got to make those two equivalent 
or the landowners will continue to be penalized.
    Thank you, sir. Thank you, Mr. Chairman.
    Mr. Raskin. Thank you for your trenchant insight on that. I 
very much appreciate it.
    And I now recognize our distinguished colleague from 
Michigan, Ms. Tlaib, for her five minutes of questioning.
    You've got to unmute, please, Ms. Tlaib.
    Ms. Tlaib. I'm so sorry. Thank you so much, Chairman, and 
thank you so much for bringing this important issue to our 
committee. I had no idea this was happening, and I really do 
appreciate it.
    In our video report earlier this year, I think, Chairman 
Raskin interviewed a landowner named Richard Averitt who was 
fighting to protect his land from the now canceled Atlantic 
Coast Pipeline. He explained how complicated the FERC process 
is for the landowners and pointed out an absurdity in the 
process, which really took me aback.
    If a landowner wants to challenge a pipeline that may go 
through their private property, they must affirmatively file to 
be an intervenor in the FERC case within 21 days. If you don't 
intervene, you lose standing, completely lose any rights. 
Richard, in his testimony before Chairman Raskin, he said, 
quote, ``the idea that someone can take your land, and if you 
don't expressly opt in, you lose your rights for all the 
processes, it's outrageous.''
    I agree with him completely. This is an extraordinary 
burden, y'all, like, on landowners, on people, regular folks. 
They're not lawyers, they're not experts, and I truly believe 
that FERC's process puts this unfair burden onto our residents 
and landowners.
    One of these things that came up, but, you know, one of the 
things that was really stunning was that FERC actually takes 
literally a hands-off process or approach in educating 
landowners about their rights. FERC delegates it--get this--to 
the pipeline company to conduct direct outreach to landowners 
and inform them of their rights. This is a huge conflict of 
interest.
    Landowners have said that the only notice they ever receive 
consists of some sort of pamphlet that's buried in legal 
documents. They often have no idea, which is completely 
unfair--no idea, no notice that they must intervene to fully be 
engaged and be able to protect their land.
    So, Mr. Morenoff, why doesn't FERC proactively reach out to 
affected landowners instead of delegating it to the pipelines?
    Mr. Morenoff. Representative, we go to great lengths to 
ensure that all landowners receive notice through attention to 
the landowner list and the--ensuring that information is 
provided. At that----
    Ms. Tlaib. Mr. Morenoff, are they lying? Are they lying 
when they say they're not given notice? I mean, why wouldn't 
they? It's their land. So, when you say you do, you're 
literally delegating it, from what I understand, giving it and 
putting the burden on the companies that benefit from them 
not--from the landowners not knowing.
    Mr. Morenoff. Our sense is that, including through the 
prefiling process that my colleague was describing, the 
pipeline is in the position to have a sense best of all of the 
people who will be affected along the way. FERC's regulations 
then require that information to be provided.
    It's also the case that it--I'm sorry.
    Ms. Tlaib. Go ahead, Mr. Morenoff. I just think it's a 
conflict of interest when it looks like you all are depending 
on the pipelines to do it.
    Mr. Morenoff. I also feel confident that in the situation 
where a landowner were able to show that they had not received 
notice, the Commission would allow them to intervene after that 
21-day period as a matter of fairness.
    Ms. Tlaib. Beyond the pamphlets and the FERC website, what 
does FERC do to proactively educate landowners other than the 
options in the FERC process right now?
    Mr. Morenoff. To me, one of the really important 
opportunities that we provide is also the landowner helpline, 
which is something that is also--we try to heavily publicize, 
so that people have the opportunity to have someone at FERC who 
can help them to understand the process. We do understand that 
many people have no reason to be familiar with FERC.
    Also, the FERC website was completely overhauled this 
past----
    Ms. Tlaib. How many people, do you know how many people, 
Mr. Morenoff, have called the hotline?
    Mr. Morenoff. I believe over the past few years, it is in 
the hundreds to thousands.
    Ms. Tlaib. I want to go back to the issue of intervention. 
It seems to me that if FERC wanted to protect landowners, it 
could, by default, make all the affected landowners parties to 
the case by default, literally make them part of the case--they 
are directly impacted--and allow landowners to opt out of the 
process. So, why not automatically go ahead and make them part 
of the process? They have legal standing obviously, it's their 
land.
    I mean, the only good reason I can think of is FERC doesn't 
really want to make a good-faith effort to make the process 
smoother and easier for--you know, easier for landowners, but 
really lean toward benefiting the pipeline.
    So, Mr. Turpin, why is the window for the landowners' 
intervention so short, 21 days?
    Mr. Turpin. Well, it's not just the 21 days. There's also 
opportunities to intervene after the Commission issues its 
draft environmental impact statement. And either of those 
periods are not prohibitive as well. Folks can petition to 
become an intervenor at any time in the process as long as they 
can demonstrate good cause. And the Commission has historically 
viewed land ownership as good cause for being an intervenor.
    Ms. Tlaib. Mr. Turpin, is it true that FERC has the 
authority to set a longer intervention period?
    Mr. Raskin. The gentlelady's time is up, but please answer 
her question if you would.
    Mr. Turpin. Yes. The--the--yes, the Commission has that 
authority.
    Ms. Tlaib. So, why haven't they done it?
    Mr. Turpin. I think, again, it comes back to that the 
Commission will always consider requests for intervention even 
outside of those periods when it makes its determinations and 
often grants that intervention.
    Ms. Tlaib. Depending on what the pipelines want, right?
    Mr. Raskin. Ms. Tlaib, I think we're going to have to leave 
it at that. Thank you for your questioning very much.
    And Mr. Lynch of Massachusetts is recognized for five 
minutes now.
    Mr. Lynch--Mr. Lynch, you've been recognized for your 
questions.
    Mr. Lynch. Thank you very much, Mr. Chairman. I really 
appreciate your kindness in allowing me to waive in on this. 
I'm not a usual member here, but I am----
    Mr. Raskin. We are delighted to have you.
    Mr. Lynch. Well, thank you.
    So, I also sit on the T&I Subcommittee on Railroads and 
Pipelines and Hazardous Material, so I do get a lot of action 
around pipelines. Matter of fact, I asked for assignment to 
that subcommittee on Transportation because of all the problems 
I'm having with pipelines in my district. So, I really 
appreciate the opportunity to participate.
    I've got two major and dangerous pipelines that have been 
recently permitted by FERC in my district. One is the West 
Roxbury Lateral. Mr. Turpin, you might be familiar with this. 
It actually runs through a live blast zone. OK? So, it's a 
high-pressure natural gas line that runs through an active 
blasting zone in a stone quarry that's next to a residential 
neighborhood, so--you get that? They're blasting, right? So, 
the people complain that their foundations are being disrupted 
and damaged by the continual blasting that goes on here. And 
then you come along and permit a high-pressure gas line to go 
through the blast zone right next to the homes. These are 
residential homes in West Roxbury.
    And I got to tell you, we went to court against you. We 
lost because--because everybody loses, right? And I appreciate 
the due process arguments, you know, offered by the chairman. 
Absolutely true, and it's stunning. It's absolutely stunning.
    And then I have another pipeline that is in Weymouth, 
Massachusetts, also in my district, and we're having a war 
about that. We had two accidents in the last several months on 
that one. There's been emergency shutdowns, and we still can't 
stop it. So, we're dealing with PHMSA right now. They're 
actually doing an active investigation.
    But the question I have is, so in Weymouth, in Weymouth, 
that is a pipeline to bring gas to Canada. Now, the pipeline 
companies have relied heavily on the public purpose clause of 
the Fifth Amendment, because ostensibly there's a public 
purpose in providing gas to American cities and towns, you 
know, to service our needs.
    But this gas, this gas, is now become available--because in 
the last 10 years, we went from a country that had a dwindling 
gas supply, but because of hydraulic fracturing and direct 
drilling, now we are an exporter.
    And so what I'm asking is, shouldn't there be a different 
standard? Shouldn't we take a closer look, a deeper level of 
scrutiny for gas companies that are creating pipelines for 
profit to sell to other countries?
    So, the public purpose clause should not apply, in my 
opinion--in my opinion. And I just want to ask Mr. Turpin and 
Mr. Morenoff if you could address that question. Because we 
raised it in court, but, you know, we had no shot.
    Mr. Morenoff. Representative, if it's all right, may I 
answer that question first?
    Mr. Lynch. Sure.
    Mr. Morenoff. In April 2018, the Commission issued a Notice 
of Inquiry with respect to the certificate policy statement 
that has governed the Commission's review of these types of 
certificates for the past 20 years. One of the questions that 
was teed up there went to what constitutes need and are there 
different standards that should be applied based on different 
facts.
    Chairman Chatterjee has stated several times publicly that 
his view is those issues are of such importance that they 
should be addressed by a full complement of five commissioners. 
Regrettably, we've had difficulty having five commissioners 
over the past few years, but with the recent approval, we will 
be up to five commissioners in January, and that may provide 
the opportunity to address that and other issues that were 
raised in that notice of inquiry.
    Mr. Lynch. OK. What I'm saying is that FERC's credibility 
is at a low point right now, and--so, you know, we've got a 
bunch of factors that have not been as present as they are now. 
And I haven't even got to the environmental part, which is 
huge, but just the public safety.
    So, the people in these city towns came up with alternative 
courses, alternative routes, that were safer for the residents, 
and FERC would not consider those. The pipeline company knew 
they were going to get their--why should they--why should they 
compromise? Why should they accommodate the local community 
when they know they can jam it right through the court and get 
exactly what they want?
    So, I'm asking you to rebalance the scales and consider the 
safety of the people, you know, that you're supposed to be 
protecting and that we're all supposed to be protecting.
    So, I don't know if my time is up, Mr. Chairman. The only 
other thing I would--is just give Mr. Turpin an opportunity to 
address the same question.
    Mr. Raskin. Thank you, Mr. Lynch. Your time is up, but 
let's give Mr. Turpin a chance to respond.
    Mr. Lynch. You're very kind. Thank you.
    Mr. Turpin. Thank you. I would have the same response that 
David put forward. The Commission has considered those 
questions and has sought comment from the public and all kinds 
of stakeholders, and I'm hopeful that they'll move forward now 
that we'll be soon having a full panel.
    Mr. Raskin. Thank you. Mr. Lynch----
    Mr. Lynch. Thank you. Thank you, Mr. Chairman. You're 
awesome. Thank you.
    Mr. Raskin. Thank you for your questions.
    Mr. Lynch poses a very trenchant question, I think, that 
all of us would be interested in having answered by FERC, which 
is, you know, it's one thing if they come and they want to take 
your whole backyard for a highway in your city. It's another 
thing if they want to take your backyard for a highway to get 
to another country that Americans aren't even going to be 
using, and should that be treated differently.
    I see now finally we've been joined by Mr. Gomez. And, Mr. 
Gomez, you are recognized for your five minutes of questioning.
    Mr. Gomez, you're recognized if you would unmute.
    Mr. Gomez. Thank you, Mr. Chairman. In the age of 
coronavirus, I'm having some technical difficulties.
    So, I want to just start off with the question. In our 
investigation, we saw a pattern of landowners' perception of 
the FERC process, one that unfairly favors pipeline companies 
over individual landowners. Irene Lynch, a Virginia landowner 
in the path of Atlantic Coast Pipeline, has said that, quote, 
``FERC is broken and the whole process is set up so that the 
industry has advantage over landowners every step of the way.''
    Similarly, Andrew Hindman, a Virginia landowner in the path 
of the Transcontinental Pipeline, said, quote, ``FERC 
authorized a pipeline and unleashed a private company onto all 
the landowners along the pipeline without offering a whole lot 
of support. It's unfair to the landowners.'' FERC Commissioner 
Richard Glick has consistently called for more landowner 
support.
    Mr. Morenoff, do you believe that as things stand now, FERC 
provides equal support for landowners to stand on equal footing 
with pipeline companies?
    Mr. Morenoff. Representative, thank you. I think the 
Commission is always looking for ways to improve their process. 
We recognize that landowners have those concerns, and we 
continue to make improvements to the FERC process to make it 
more accessible and more easily understandable for entities 
that do not have the same familiarity with FERC as would 
prospective developers.
    Mr. Gomez. What do you think FERC should do to provide more 
support? Is there any specific recommendations?
    Mr. Morenoff. Representative, some of the changes that we 
have made already, and I know we continue to attend to, are 
making more information more easily available. I think it's a 
fair criticism that even two or three years ago, someone coming 
to the FERC website trying to find information, if you didn't 
know about FERC, it would be very challenging to find that 
information. Now the first page of ferc.gov is [inaudible] ask 
questions, as well as to provide more information about the 
landowner helpline, so that the landowners have the opportunity 
to talk to a real person that can help them to understand that 
process. I don't have other specific ideas in mind today, but 
the Commission is committed to continuing to improve that 
process.
    Mr. Gomez. Yes. And I appreciate that, but as far as we can 
tell, FERC seems to assign much of the responsibility of 
assisting landowners to the pipeline companies themselves. For 
example, FERC's landowner--quote/unquote, landowner topics of 
interest page, it suggests that landowners first contact the 
natural gas company's point of contact, then the company's 
hotline, all before reaching out to FERC's landowner helpline.
    So, Mr. Morenoff, why should a landowner seeking help with 
a pipeline process trust the pipeline company to have his or 
her best interest at heart?
    Mr. Morenoff. Representative, thank you. And my colleague 
Terry may have thoughts on that as well, but because the 
pipeline developer is the entity that's on the ground, we do 
suggest contacting the pipeline first, because if they can 
reach a solution quickly, that's going to lead to the fastest 
relief. But that in no way is intended to say don't contact 
FERC. FERC is always there as a resource. And if for any reason 
a landowner prefers to contact FERC directly, they should do so 
quickly and first.
    Mr. Gomez. Thank you. Also, landowners who do call the 
pipeline, as what we've been told, say they feel like they're 
speaking into the void. Landowner Maury Johnson of West 
Virginia stated, quote, ``most landowners, citizens, and many 
other groups that I know feel that they are being ignored by 
FERC to the benefit of the energy firms that FERC is supposed 
to regulate. There is nothing fair about this at all.''
    Mr. Morenoff, can you tell us what assistance FERC provides 
landowners through its helpline?
    Mr. Morenoff. Yes. There are a variety of types of 
assistance that a landowner may receive. One is it's a chance 
to talk to a real person about FERC, about the process, if 
someone does not understand what their opportunities may be to 
participate.
    It's also a way that if a landowner has a specific concern 
at any point in the process, that point of contact through the 
landowner helpline either may be able to reach out directly to 
appropriate people on the ground or through the people in 
Terry's office, the Office of Energy Projects, to be able to 
have that kind of conversation. So, it is both informational 
and the opportunity to receive specific assistance.
    Mr. Gomez. Thank you. I had more questions, but I'm running 
out of time.
    You know, as the primary Federal authorizing agency for 
natural gas pipelines, it is, I believe, the duty of FERC to 
keep these pipeline companies in check. But at the same time, 
our investigation has found that 99.4 percent of pipeline 
applications have been approved--essentially, it is a rubber-
stamp, right--for nearly every natural gas project, often at 
the objection of landowners.
    It's a deep concern, because it's not your job just to 
authorize natural gas pipelines, but also to help determine if 
they're in the best interest of the landowners. And it seems 
that it's not--that purpose is not being followed through with 
and at the detriment of landowners.
    So, with that, Mr. Chairman, I yield back.
    Mr. Raskin. [Inaudible.]
    Mr. Morenoff. Mr. Chairman, I believe you're muted.
    Mr. Raskin. OK. Thank you, Mr. Gomez.
    And I don't know whether either of the witnesses wanted to 
comment on the question raised by Mr. Gomez about what is the 
standard that FERC uses in granting a certificate of 
convenience in the first place.
    Mr. Morenoff. Mr. Chairman, the Commission takes seriously 
our responsibilities with respect to the public interest as 
established by the Natural Gas Act, considering a wide range of 
considerations, including economic and environmental, as well 
as the concern of landowners, in determining whether a 
certificate of public convenience and necessity is appropriate. 
And I think that the types of changes to which my colleague was 
referring that develop through the prefiling process, as well 
as through the more formal application process, reflect the 
seriousness with which the Commission takes that 
responsibility.
    Mr. Raskin. OK. Thank you.
    Before I adjourn and make a quick closing remark, I wanted 
to give Mr. Armstrong the opportunity to make any closing 
remark he would like to on behalf of the minority.
    Mr. Armstrong. Thank you, Chairman Raskin.
    I think it's important to remember natural gas is essential 
to our economy and the United States' energy independence, and 
it's often produced in states like mine and needs to be 
transported across the country. Pipelines are far and away the 
safest, cheapest, and most efficient way to transport natural 
gas.
    Pipelines relieve congestion on our highways and our rail 
lines and keep transportation costs down for other industries 
such as agriculture.
    Pipelines require many years and significant capital to be 
built. They require numerous permits at the state, local, and 
Federal level. Unfortunately, eminent domain is often a part of 
that process. FERC uses the eminent domain, and pipelines use 
it very sparingly, and it's essential for U.S. energy 
independence.
    And with that, I'll yield back to you, sir.
    Mr. Raskin. Thank you very much, Mr. Armstrong.
    I want to thank both of the witnesses for their remarks, 
for appearing today, and I want to commend all my colleagues 
for participating so seriously in this truly important 
conversation.
    I wanted to just close by making a couple of points. You 
know, we are the Subcommittee on Civil Rights and Civil 
Liberties, and so we are concerned with the trampling of the 
property rights of our people. We are not the Environmental 
Subcommittee, so we're not dealing with the question of the 
overall utility of this or that form of energy system.
    And so I would hope that all of our committee members--and 
I know from Mr. Roy's comments, he would seem to be part of 
this--that all of our committee members would be interested in 
the civil rights and the civil liberties of landowners who are 
in the path of these pipelines, whether you're the biggest 
supporter of natural gas and fracking in the world or you're a 
big opponent of it. Regardless of what you think about the 
energy systems generally, you would think that people have a 
right, as private property owners, to fair and balanced 
consideration of all of their claims and not having their 
property taken from them without due process, without fair 
compensation, without the opportunity to have it restored if a 
project exercising eminent domain actually ends up not going 
forward.
    Let me just say, finally, because it was raised--although 
it was not the subject of the hearing--I think it was stated by 
a couple of people that natural gas fracking is climate change 
friendly or safe. That is hotly disputed, and the extraction, 
the combustion, the release of both carbon dioxide, but 
especially methane in the process, can make fracking as dirty 
as coal, according to a lot of scientific studies and reports. 
And, in fact, the fracking process leads to very intense 
concentrations of methane being released, and that is an even 
more diabolical substance when it comes to climate change than 
carbon dioxide itself is.
    But in any event, that's the subject of another hearing. 
This one, I think, has been extremely productive and 
illuminating in terms of figuring out what's gone wrong in the 
FERC process. We look forward to FERC both acting quickly on 
its own to improving the fairness and the balance and the 
transparency of the process, but also us acting in Congress to 
make whatever changes we can to make sure that the property 
rights of tens of thousands of Americans is vindicated--are 
vindicated and respected in this process. So, thank you all for 
your participation.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, and we will forward them quickly to 
the witnesses for their response. We thank you for your 
cooperation there in returning them to us as promptly as 
possible.
    And the hearing is now adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]
    
                            [all]
                         

</pre></body></html>
